In             Office of Audits
               Office of Inspector General
               U.S. General Services Administration




               IMPLEMENTATION REVIEW OF CORRECTIVE ACTION PLAN
               Contract Administration for Group 10
               Recovery Act Limited Scope and
               Small Construction Projects
               Report Number A090184/P/R/R12008
               June 13, 2012
               Assignment Number A130130
               March 28, 2014




     A130130
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration


 DATE:            March 28, 2014
 TO:              Julia E. Hudson
                  Regional Administrator
                  National Capital Region (WA)

 FROM:            Susan P. Hall
                  Audit Manager, Real Property Audit Office (JA-R)
 SUBJECT:         Implementation Review of Corrective Action Plan
                  Contract Administration for Group 10
                  Recovery Act Limited Scope and Small Construction Projects
                  Report Number A090184/P/R/R12008, June 13, 2012
                  Assignment Number A130130


We completed an implementation review of the management actions taken in response
to the recommendations contained in the subject audit report (See Appendix A). The
objective of our review was to determine whether the Regional Commissioner of the
Public Buildings Service (PBS) has taken corrective actions as outlined in the Action
Plan for the Contract Administration for Group 10 Recovery Act Limited Scope and
Small Construction Projects report. To accomplish our objective we:

   •   Examined documentation submitted by PBS supporting accomplishment of the
       Action Plan steps;
   •   Performed limited testing of the implementation of the guidance and procedures
       contained in these supporting documents; and
   •   Interviewed and corresponded with PBS personnel.

Although PBS addressed the audit recommendations in its August 17, 2012, Action
Plan, we determined that it had not taken all corrective actions. As a result, a revised
corrective action plan addressing the open recommendations must be submitted within
30 days to the Governmental Accountability Office/Inspector General Audit Response
Division (H1C).

Management’s written comments on our draft report are included in Appendix B.




A130130                                1
If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

Susan P. Hall           Audit Manager        susan.hall@gsaig.gov       (202) 501-2073
Felicia Silver          Auditor-In-Charge    felicia.silver@gsaig.gov   (202) 501-1360

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this review.




A130130                                 2
Background

On June 13, 2012, we issued an audit report, Recovery Act Report—Contract
Administration for Group 10, Review of PBS’s Limited Scope and Small Construction
Projects Funded by the American Recovery and Reinvestment Act of 2009, to the
Regional Administrator, National Capital Region.       The American Recovery and
Reinvestment Act of 2009 (Recovery Act) provided the General Services Administration
(GSA) with $5.55 billion for its Federal Buildings Fund to be used to convert federal
buildings to High-Performance Green Buildings as well as to construct federal buildings,
courthouses, and land ports of entry.

Under the Group 10 Recovery Act project, the roofs of the Howard T. Markey
Courthouse (Markey Courthouse) and the Robert C. Weaver Federal Building (Weaver
Building) were to be replaced using a $6,159,621 design-build contract. The projects
required the installation of Energy Star insulated roofing systems.

Our audit found:

   •   GSA needs to strengthen its implementation of security measures; and
   •   A subcontractor was not in compliance with the Davis-Bacon Act.

To address the audit findings, we recommended that the PBS National Capital Region
Regional Commissioner:

   1. Strengthen policies, procedures, and collaboration amongst divisions to ensure
      that: all contract employees accessing GSA facilities have proper security
      clearances prior to site access, and background check information is shared with
      and retained by contract and project management staff;
   2. Secure physical access at the Group 10 Weaver Building project; and
   3. Review contractor compliance with the Davis-Bacon Act to identify and correct all
      violations.

The Regional Administrator, National Capital Region agreed with the report
recommendations.

Results

Our implementation review identified the following corrective actions as not fully
implemented:

   •   In response to Recommendation 1, PBS stated it would “Review background
       check information to verify the following: (a) contractors have filled out the
       required forms and returned to the Contracting Officer (CO); (b) CO sent forms to
       GSA’s security office for approval; and (c) after approval, the CO informed the
       project management staff of those individuals that have been approved, who
       then informs the building manager.”


A130130                                 3
          We selected a sample of 11 contract employees from the certified payroll records
          for the week ending July 14, 2012, to test whether the contractor completed the
          required security forms and background checks. During our testing, we found
          that the required forms were not included in the contract files. Instead, we were
          provided a database report that contained the names of regional government and
          contractor employees, identifying their security status. Only 3 of the 11 contract
          employees’ names were included in this report. None of the 3 had completed the
          security process. We did not receive any other information to confirm whether
          the Agency initiated the background checks for the remaining 8 contract
          employees or completed the process for the 11 employees. Therefore, we
          concluded that PBS did not satisfy the corrective action plan for
          Recommendation 1.

      •   In response to Recommendation 3, PBS responded “The GSA ARRA Project
          Manager, along with the Construction Manager will be tasked with a more
          aggressive oversight and review of contractor requirements to pay employees in
          accordance with the Davis-Bacon Act. All weekly certified payrolls for this project
          will be reviewed, along with more onsite labor interviews to ensure compliance
          with all aspects of the Davis Bacon Wage Determination for this project.” 1

          We tested the certified payroll records for the week ending July 14, 2012, against
          the applicable Davis-Bacon Act wage determination. Of the 11 contract
          employees, we found that 2 were paid an hourly rate of $1.80 less than the
          Davis-Bacon Act wage determination for the Sheet Metal Mechanic work
          classification. Therefore, we concluded PBS did not satisfy the corrective action
          plan for Recommendation 3.

Management Comments

Management concurred with our finding on Recommendation 1, noting that not all
construction employees could be verified with a favorable suitability and fitness
determination. Management disagreed with our finding related to the Davis-Bacon Act
violations. Management’s written comments on our draft report are included in
Appendix B.

OIG Response to Management Comments

The contract file documentation did not support management’s disagreement with the
finding related to the Davis-Bacon Act violations. According to Federal Acquisition
Regulation 22.404-6(c)(1):

          (c) The following applies when contracting by negotiation: (1) All written actions
          modifying wage determinations received by the contracting agency before
1
    American Recovery and Reinvestment Act (ARRA) is also referred to as the Recovery Act.



A130130                                         4
      contract award, or modifications to general wage determinations published on the
      WDOL {Wage Determinations OnLine.gov} before award, shall be effective.

The contract was awarded on September 15, 2010. The wage determination in effect at
that time was General Decision Number DC100004, modification 4, revised August 20,
2010. This was the wage determination we used in our analysis. Therefore, we
reaffirm our finding on the two Davis-Bacon Act wage determination violations.

Action Required

The Regional Administrator, National Capital Region, is required to submit a revised
corrective action plan to the Governmental Accountability Office/Inspector General Audit
Response Division (H1C) within 30 days showing the new corrective actions planned.




A130130                                5
Appendix A – Action Plan for Report Number A090184/P/R/R12008




A130130                     A-1
Appendix A – Action Plan for Report Number A090184/P/R/R12008 (cont.)




A130130                        A-2
Appendix A – Action Plan for Report Number A090184/P/R/R12008 (cont.)




                                     3




A130130                        A-3
Appendix A – Action Plan for Report Number A090184/P/R/R12008 (cont.)




A130130                        A-4
Appendix B – Management Response




A130130                     B-1
Appendix B – Management Response (cont.)




A130130                       B-2
Appendix C – Report Distribution

Commissioner, Public Buildings Service (P)

Deputy Commissioner, Public Buildings Service (P)

PBS Chief of Staff, Public Buildings Service (P)

Regional Recovery Executive, Public Buildings Service, National Capital Region (WP)

Acting National Program Office ARRA Executive, Public Buildings Service (PCB)

Chief of Staff, PBS Office of Construction Programs (PCB)

Regional Administrator, National Capital Region (WA)

Regional Commissioner, Public Buildings Service, National Capital Region (WP)

Regional Counsel, National Capital Region (LDW)

Program Manager, GAO/IG Audit Response Division (H1C)

Audit Liaison, Public Buildings Service (BCP)

Audit Liaison, Public Buildings Service, National Capital Region (BCPA)

Assistant Inspector General for Auditing (JA)

Director, Audit Planning, Policy, and Operations Staff (JAO)

Deputy Assistant Inspector General for Investigations (JID)

Director, Office of Internal Operations (JI-I)

Investigator, Office of Internal Operations (JI-I)




A130130                                  C-1
